Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 1 of 11 PagelD #: 825

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF WEST VIRGINIA
CHARLESTON DIVISION
MACHIAVELLIFARRAKHAN SIBERIUS,
Plaintiff,
v.

Case No. 2:i8-cv-01125

AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.,
PRESSLEY RIDGE, and WEST VIRGINIA
DEPARTMENT OF EDUCATION,
Defendants.
MEMORANDUM OPINION AND ORDER
On November 13, 2018, the plaintiff, Machiavelli Farrakhan Siberius,
proceeding pro se, filed an excessively lengthy Amended Complaint [ECF No. 29]
against the above-named defendants, alleging various federal and state claims as
further addressed in section III below. Pending before the court are the defendants’
Motions to Dismiss [ECF Nos. 30, 32, and 34], the West Virginia Department of
Education’s (“WVDE”) Motion to Strike Plaintiffs Sur-reply (ECF No. 42), the
plaintiffs Motion to Compel Joinder (ECF No. 44), and the plaintiffs Motion to Strike
the WVDE’s Reply and Motion to Strike Sur-reply (ECF No. 45), all of which will be
addressed herein.
This matter was initially referred to the Honorable Dwane L. Tinsley, United
States Magistrate Judge for submission of proposed findings and a recommendation
for disposition pursuant to 28 U.S.C. § 636(b)(1)(B). For reasons appearing to the

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 2 of 11 PagelD #: 826

court, the referral of this matter to the Magistrate Judge is WITHDRAWN and the
undersigned will proceed to address the pending motions.
I.

Standard of Review
The defendants have filed Motions to Dismiss pursuant to Rule 12(b)(6) of the

Federal Rules of Civil Procedure. A motion filed under Rule 12(b)(6) tests the legal
sufficiency of a complaint or pleading. Giarratano v. Johnson, 521 F.3d 298, 302 (4th
Cir. 2008). A pleading must contain a “short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). This standard
“does not require ‘detailed factual allegations,’ but it demands more than an
unadorned, the-defendant-unlawfully-harmed-me accusation.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)).
When “faced with a Rule 12(b)(6) motion to dismiss . . . courts must . . . accept all
factual allegations in the complaint as true.” Tellabs, Inc. v. Makor Issues & Rights,
Ltd., 551 U.S. 308, 322 (2007).
To survive a motion to dismiss, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’”
Ashcroft, 556 U.S. at 678 (quoting Twombly, 550 U.S. at 57Q). To achieve facial
plausibility, the plaintiff must plead facts allowing the court to draw the reasonable
inference that the defendant is liable, moving the claim beyond the realm of mere
possibility. Id.

Mere “labels and conclusions” or “formulaic recitation[s] of the

elements of a cause of action” are insufficient. Twombly, 550 U.S. at 555.

2

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 3 of 11 PagelD #: 827

Because the plaintiff is proceeding pro se, the court is obliged to construe his
pleading liberally. Haines v. Kernel.; 404 U.S. 519, 521 (1972). However, a district
court does not assume the role of an advocate to construct arguments or theories for
a pro se plaintiff and the court need not comb through the pleadings looking for
potential claims. See Gordon v. Leake, 574 F.2d 1147 (4th Cir. 1978); Drake v. City
of Fort Collins, 927 F.2d 1156, 1159 (10th Cir. 1991). “Judges are not like pigs,
hunting for truffles buried in briefs.” United States v. Dunkel, 927 F.2d 955, 956 (7th
Cir. 1991).
II.

Factual Background and Procedural History
As alleged in the 105-page Amended Complaint, Machiavelli Farrakhan

Siberius (hereinafter “the plaintiff’) who, at the time was known as “Adam Zane
Dotson,” was a student in American Public University System, Inc.’s (“APUS”) PostBaccalaureate Teacher Preparation Certification Program. In the spring of 2016, the
plaintiff was enrolled in EDUC697 Clinical Supervision, a student teaching course
required to receive his teaching certification, and he was placed at Pressley Ridge in
Wood County, West Virginia, for student teaching.
According to the Amended Complaint, on or about June 6, 2016, the plaintiff
was terminated from his student teaching position at Pressley Ridge for reporting a
staff member to the Wood County Sheriffs Department for alleged physical abuse of
a student. As a result of his termination, the plaintiff did not complete the full 16
weeks of student teaching required by APUS for his certification, received a failing

3

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 4 of 11 PagelD #: 828

grade for the Clinical Supervision course, and was not issued a certificate to teach in
the State of West Virginia.
On June 5, 2018, the plaintiff filed his initial Complaint in the Circuit Court
of Wood County. It was removed to this court by APUS, with the consent of the other
defendants. [ECF Nos. 3, 4, 5]. On September 28, 2018, United States Magistrate
Judge Dwane L. Tinsley granted the plaintiff leave to amend his Complaint. [ECF
No. 27]. On November 13, 2018, the plaintiff filed the Amended Complaint on which
this matter is now proceeding. [ECF No. 29].
Count II of the Amended Complaint asserts a claim against Pressley Ridge and
the WVDE under the Fair Labor Standards Act (“FLSA”), 29 U.S.C. §§ 201 et seq.
which was the basis for removal of the civil action to this federal court. Additionally,
buried within Count III of the Amended Complaint is a claim purportedly brought
under 42 U.S.C. § 1983 against Pressley Ridge and the WVDE alleging that the
failure to receive his teaching certification deprived him of a property right and, thus,
violated his right to due process. [ECF No. 29 at 53].
The remaining claims in the Amended Complaint are state law claims alleging
wrongful discharge, breach of contract, promissory estoppel, equitable estoppel,
tortious interference, and conversion.1 The breach of contract claims are brought only
against APUS. The other state law claims are brought only against Pressley Ridge
and the WVDE.

1 In conjunction with the plaintiffs FLSA claim in Count D, the convoluted Amended Complaint also
appears to assert violations of the West Virginia Minimum Wage and Maximum Horn- laws and the Wage
Payment and Collection Act, W. Va. Code §§ 21-5-1 et seq. and 21-5C-1 et seq.

4

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 5 of 11 PagelD #: 829

On November 27, 2018, each defendant filed a motion to dismiss [ECF Nos. 30,
32, and 34], with accompanying memoranda of law [ECF Nos. 31, 33, and 35]. On
December 3, 2018, the plaintiff filed responses in opposition to the motions to dismiss
[ECF Nos. 37, 38, and 39]. On December 11, 2018, the WVDE filed a reply brief [ECF
No. 40]. Thereafter, the plaintiff filed an unauthorized sur-reply [ECF No. 4l], which
the WVDE moved to strike [ECF No. 42], and the plaintiff filed a Motion to Strike the
WVDE’s Reply and Motion to Strike [ECF No. 45]. Also pending is the plaintiffs
Motion to Compel Joinder [ECF No. 44], in which he seeks a “joint trial” of defendants
WVDE and Pressley Ridge. This matter is ripe for adjudication.
III.

Discussion
A.

The Amended Complaint fails to state a plausible claim under the FLSA.

In Count II of his Amended Complaint, the plaintiff alleges that he was
employed by Pressley Ridge and the WVDE, and that the failure to pay him for the
hours he taught at Pressley Ridge violated the FLSA and the corresponding state law
provisions. However, as aptly noted by the defendants’ motions, the undersigned
FINDS that the plaintiffs Amended Complaint does not allege sufficient facts
demonstrating an employer-employee relationship between the plaintiff and either
Pressley Ridge or the WVDE. Accordingly, the Amended Complaint fails to state a
claim upon which relief can be granted under the FLSA.
As recently noted by the United States Court of Appeals for the Fourth Circuit,
in another case involving a student teacher, the FLSA conditions liability on the
existence of an employer-employee relationship, and the employee bears the burden

5

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 6 of 11 PagelD #: 830

of alleging and proving the existence of that relationship. Kerr v. Marshall Univ. Bd.
of Governors, 824 F.3d 62, 83 (4th Cir. 2016) (citing Benshoff v. City of Virginia
Beach, 180 F.3d 136, 140 (4th Cir. 1999) and Davis v. Food Lion, 792 F.2d 1274, 1276
(4th Cir. 1986)). Whether or not a person is an employee within the meaning of the
FLSA is a question of law. The Kerr Court further notedFLSA defines “employer” as “any person acting directly or indirectly in
the interest of an employer in relation to an employee and includes a
public agency.” 29 U.S.C. § 203(d). Employers include those with
managerial responsibilities and “substantial control of the terms and
conditions of the work of... employees.” Falk v. Brennan, 414 U.S. 190,
195, 94 S. Ct. 427, 38 L.Ed.2d 406 (1973). To determine whether the
employer-employee relationship exists, courts apply the “economic
reality” test. Schultz, 466 F.3d at 304 (citing Henderson v. Inter—Chem
Coal Co., 41 F.3d 567, 570 (10th Cir. 1994)).
The economic reality test focuses on “whether the worker ‘is
economically dependent on the business to which he renders service or
is, as a matter of economic (reality] , in business for himself.’” Id. (quoting
Henderson, 41 F.3d at 570). Relevant factors include “whether the
alleged employer (l) had the power to hire and fire the employees, (2)
supervised and controlled employee work schedules or conditions of
employment, (3) determined the rate and method of payment, and (4)
maintained employment records.” Herman v. RSR Sec. Servs. Ltd., 172
F.3d 132,139 (2d Cir. 1999) (quoting Carter v. Dutchess Cmty. Coll., 735
F.2d 8, 12 (2d Cir. 1984)), modified by Zheng v. Liberty Apparel Co. Inc.,
355 F.3d 61 (2d Cir. 2003). Although no one factor is dispositive, not a
single factor weighs in favor of finding the existence of an employeremployee relationship here, * * * The fact that Kerr did not ultimately
receive course credit does not convert her truncated educational
experience into unpaid labor. Given the economic reality of Kerr’s
position as a student teacher, the district court properly determined that
Kuhn was not an “employer” under FLSA and dismissed Kerr’s final
claim.
Id. at 83-84.
In another case involving a student enrolled in a cosmetology teacher trainee
course to pursue her teaching license, our sister court in the Middle District of North
6

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 7 of 11 PagelD #: 831

Carolina found that the teacher trainee was not an employee required to be
compensated under the ELSA because “the benefits to [the trainee] derived from the
teacher training program clearly outweighed the benefits to [the alleged employer
school]” and, thus, the trainee was not an “employee” under the FLSA. See Lane v.
Carolina Beauty Sys., Inc., No. 6-90-cv-00108, 1992 WL 228868, *4 (M.D.N.C. July 2,
1992). The Lane court specifically notedThe Supreme Court has held that the definition of “to suffer or permit
to work” does not encompass persons “who, without any express or
implied compensation agreement, might work for their own advantage
on the premises of another. Otherwise, all students would be employees
of the school or college they attend, and as such entitled to receive
minimum wages.” Walling v. Portland Terminal Co., 330 U.S. 148, 152,
67 S. Ct. 639, 641, 91 L. Ed. 809 (1947).
Id. at *3. The Lane court considered factors including whether the trainee’s duties
and activities were part of the curriculum required for the educational program in
which the trainee was enrolled, the fact that the trainee was supervised and
evaluated by a licensed teacher, and the fact that the school did not displace any
employees of the school or forego hiring additional employees because of the presence
of the trainee and the work the trainee was doing. Id. at 2.
The plaintiff does not allege that he had a pre-existing paid teaching position
at Pressley Ridge, or with any school operated by the WVDE; nor could he, as he
acknowledges that he was not a licensed or certified teacher. Rather, the Amended
Complaint merely alleges that the plaintiff was issued a student teaching permit.
Additionally, there is no indication in the Amended Complaint that the plaintiff
displaced any actual employees of the defendants.

7

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 8 of 11 PagelD #: 832

Although the plaintiff alleges that a school secretary at Pressley Ridge kept a
sign-in log for the dates and times the he worked, such records were necessary to
confirm his fulfillment of the student teaching field hour requirements and were not
actual employer time records. The plaintiff acknowledges that he was not paid. The
plaintiff further alleges that, although he designed lesson plans and objectives,
graded papers, lectured students, and directed class activities, he was supervised by
a site teacher and benefitted from those duties as part of his academic program. [Id.
at 46]. Thus, the Amended Complaint merely establishes that the plaintiff performed
duties that were required as part of his curriculum for the APUS student teaching
program, which were supervised and evaluated by a licensed teacher.
The undersigned FINDS that the plaintiffs allegations fail to establish, under
the totality of the circumstances, that either Pressley Ridge or the WVDE had
sufficient operational control over the plaintiff in order to constitute an employeremployee relationship for the purposes of the FLSA. Accordingly, the undersigned
further FINDS that the Amended Complaint fails to state a plausible claim for relief
under the FLSA. Thus, dismissal of that claim under Rule 12(b)(6) is warranted.
B.

The Amended Complaint fails to state a claim under 42 U.S.C. § 1983
against Pressley Ridge and/or the WVDE.

As noted above, the Amended Complaint also purports to raise a claim under
42 U.S.C. § 1983 against Pressley Ridge and the WVDE. [ECF No. 29 at 53]. Section
1983 of Title 42 of the United States Code, provides in pertinent part:
Every person, who under color of any statute, ordinance, regulation,
custom, or usage, of any State . . . subjects, or causes to be subjected,
any citizen of the United States or other person within the jurisdiction
8

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 9 of 11 PagelD #: 833

thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper proceedings for redress
42 U.S.C. § 1983. While not in itself a source of substantive rights, section 1983
provides a “method for vindicating federal rights elsewhere conferred by those parts
of the United States Constitution and federal statutes that it describes.” Baker v.
McCollan, 443 U.S. 137, 144 n.3 (1979). To successfully establish a section 1983
claim, however, “a plaintiff must allege the violation of a right secured by the
Constitution and laws of the United States and must show that the alleged
deprivation was committed by a person acting under color of state law.” Crosby v.
City of Gastonia, 635 F.3d 634, 639 (4th Cir. 2011) (quoting West v. Atkins, 487 U.S.
42, 48 (1988)) (Emphasis added).
Neither Pressley Ridge, nor the WVDE, is “a person acting under color of state
law.” As alleged in the Amended Complaint, Pressley Ridge is a private corporation
that provides residential treatment, educational, and foster care services,
headquartered in Pittsburgh, Pennsylvania. Thus, it was not acting under color of
state law. Likewise, the WVDE, an agency of the State of West Virginia, is not a
person with respect to section 1983. In Will v. Michigan Dept, ofState Police, 491
U.S. 58, 71 (1989), the Supreme Court held that, neither a State, nor its officials
acting in their official capacities, are “persons” under section 1983. Accordingly, the
undersigned FINDS that the Amended Complaint fails to state any plausible claim
against these defendants under 42 U.S.C. § 1983. Thus, dismissal of that claim under
Rule 12(b)(6) is also warranted.

9

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 10 of 11 PagelD #: 834

C.

The undersigned declines to exercise supplemental jurisdiction over the
plaintiffs state law claims.

Having found that the plaintiff has not stated any plausible federal claim,
which was the basis of removal herein, and there being no diversity of citizenship,
the undersigned declines to exercise supplemental jurisdiction over the plaintiffs
state law claims, pursuant to 28 U.S.C. § 1367(c)(3), and REMANDS this matter to
the Circuit Court of Wood County.
IV.

Conclusion
For the reasons stated herein, it is hereby ORDERED that the Motions to

Dismiss filed by the WVDE [ECF No. 303 and Pressley Ridge lECF No. 34] are
GRANTED with respect to the plaintiffs FLSA and section 1983 claims, but are
otherwise DENIED WITHOUT PREJUDICE to being re-asserted in the state court.
)

It is further ORDERED that the Motion to Dismiss filed by APUS [ECF No. 32] is
DENIED WITHOUT PREJUDICE to being re-asserted in the state court.
In fight of the rulings made herein, it is further ORDERED that the WVDE’s
Motion to Strike Sur-reply [ECF No. 42], the plaintiffs Motion to Compel Joinder
[ECF No. 44], and the plaintiffs Motion to Strike Reply and Motion to Strike Surreply lECF No. 45] are DENIED AS MOOT. Finally, it is further ORDERED that
this matter is REMANDED to the Circuit Court of Wood County for consideration of
the plaintiffs state law claims.
The Clerk is directed to forward a copy of this Memorandum Opinion and
Order to counsel of record and any unrepresented party. The Clerk is further directed

io

Case 2:18-cv-01125 Document 48 Filed 09/13/19 Page 11 of 11 PagelD #: 835

to send a certified copy of the record of this civil action to the Circuit Court of Wood
County.
ENTER-

September 13, 2019

JOSEPH R. GOODW
ITED STATES DISTRICT JUDGE

11

IN THE CIRCUIT COURT OF WOOD COUNTY, WEST VIRGINIA
MACHIAVELLIFARRAKHAN SIBERIUS,
Plaintiff,
VS:

CASE NO. 18-C-153
Jason A. Wharton, Circuit Judge

AMERICAN MILITARY UNIVERSITY &
AMERICAN PUBLIC UNIVERSITY SYSTEMS,
PRESSLEY RIDGE, and
WEST VIRGINIA DEPARTMENT OF EDUCATION,

ENTERED
____0.8. No__

Page.

M 09 2020

Defendants.

CAROLEJONES
GLERK CIRCUIT COURT

ORDER STAYING PROCEEDING PENDING APPEAL
This matter came before the Court on November 21,2019 for a hearing on the
Motions to Dismiss filed by each of the defendants. After given the parties the
opportunity to argue, the Court took the matter under advisement.
The Court disclosed that it was currently being represented by the law firm of
Pullin, Fowler, Flanagan, Brown & Poe, PLLC in a civil suit, and that the Court did not
believe that would affect its ability to be impartial. However, the parties were advised
they-eould take any necessary steps to protect their interest----------The Court FINDS that no motion to disqualify has been filed by any party;
therefore, It may proceed with the case.
The Court FINDS that Plaintiff instituted this action by filing a Complaint on June
5,2018. The Court FINDS that on July 5,2018, the defendants removed the action to
federal court. The Court FINDS that the Plaintiff was given leave to amend his complaint
i/fojzoza

Pagf i°of3^tS'

MS/imeiS

in federal court on September 28,2018. The Court further FINDS that the Plaintiff filed
his Amended Complaint on November 13,2018. The Court FINDS that all the defendants
filed motions to dismiss the Plaintiff s Amended Complaint in the District Court. On
September 13,2019, the District Court dismissed Plaintiffs federal law claims, declined
to exercise supplemental jurisdiction over the state law claims, and remanded those
remaining claims to this Court for further adjudication.
The Court FINDS that on October 1,2019 the Plaintiff filed an appeal of the
District Court’s decision to the United States Court of Appeals for the Fourth Circuit. The
Court FINDS that on October 3,2019, the Court ofAppeals for die Fourth Circuit
docketed the Plaintiffs appeal under Case No. 19-7400 and entered an Informal Briefing
Order governing the proceedings on appeal.
The Court FINDS that W.Va. Code §56-6-10 provides authority allowing circuit
courts to stay actions where, there are other pending actions which will resolve all or a
substantial portion of the same claims. The Court FINDS that the appeal currently
pending before the United States Fourth Circuit Court ofAppeals may resolve all or a
substantial portion of the claims before this Court.
Accordingly, the Court ORDERS this action to be stayed until an order is entered
regarding the appeal. Once the matter is decided, the parties are directed to so advise the
Court and seek a status conference for further orders from this Court.
Additionally, ifthere Is some other development in the appeal that a party believes
would necessitate reconsideration of the stay entered by this Court, that party may so
move and request a hearing for reconsideration of this stay.
Page 2 of3

\
* -»

The Clerk of this Court is ORDERED to provide a copy to this Order to all
counsel of record and pro se parties.

ENTER:

^ASONA. WHARTON, JUDGE

COUNTY OF WOOD. TOVWT*

/to me a

coL,rt,

2g*.
——-----

&

County, West Virginia
Ar. Deputy

Page 3 of3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7400

MACHIAVELLIFARRAKHAN SIBERIUS, I,
Plaintiff - Appellant,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION,
Defendants - Appellees.

Appeal from the United States District Court for the Southern District of West Virginia, at
Charleston. Joseph R. Goodwin, District Judge. (2:18-cv-01125)

Submitted: April 20, 2020

Decided: May 6, 2020

Before AGEE, DIAZ, and THACKER, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Machiavelli Farrakhan Sibelius, I, Appellant Pro Se. Data A. DeCourcy, Greensburg,
Pennsylvania, Joseph W. Selep, ZIMMER KUNZ PLLC, Pittsburgh, Pennsylvania; Victor
Flanagan, Katie LeeAnn Hicklin, PULLIN, FOWLER, FLANAGAN & POE, PLLC,
Charleston, West Virginia, for Appellees.

Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Machiavelli Farrakhan Siberius, I, appeals the district court’s order denying relief
on his civil action. We have reviewed the record and find no reversible error. Accordingly,
we affirm for the reasons stated by the district court. Siberius v. Am. Pub. Univ. Sys., Inc.,
No. 2:18-cv-01125 (S.D.W. Va. Sept. 13,2019). We dispense with oral argument because
the facts and legal contentions are adequately presented in the materials before this court
and argument would not aid the decisional process.
AFFIRMED

2

USCA4 Appeal: 19-7400

Doc: 27

Filed: 09/29/2020

Pg: 1 of 1

FILED: September 29, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7400
(2:18-cv-01125)

MACHIAVELLIFARRAKHAN SIBERIUS, I
Plaintiff - Appellant
v.

AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION
Defendants - Appellees

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Agee, Judge Diaz and Judge
Thacker.
For the Court
/s/ Patricia S. Connor. Clerk

